April 27, 2011

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Contract Management Data
        (Report Number CA-AR-11-002)

This report presents the results of our self-initiated audit of contract management data
(Project Number 10YG010CA001). Our objectives were to assess the U.S. Postal
Service’s capability to collect, maintain, and validate contract management data to
support the contract administration process and to evaluate policies and processes in
place to ensure data integrity. This work was conducted as a follow-up to an initial joint
request1 from Senators Susan M. Collins, ranking member, Senate Committee on
Homeland Security & Governmental Affairs, and Claire C. McCaskill, chair,
Subcommittee on Contract Oversight. Specifically, we were asked to determine how the
Postal Service uses automation to manage their contracts with transparency and what
barriers exist that prevent the Postal Service from maintaining and reporting contract
data. This audit addresses financial and operational risks. See Appendix A for additional
information about this audit.

The Postal Service is exempt from the Federal Funding Accountability and
Transparency Act of 2006 (FFATA), and therefore, is not required to use the Federal
Procurement Data System (FPDS)2 to post contract action data. However, the Postal
Service uses the Enterprise Data Warehouse (EDW)3 as itsr entity-wide repository to
provide internal transparency to manage contracts and spend data. Postal Service
contracting officials primarily use the Contract Authoring and Management System
(CAMS) to create contract documents. During October 1, 2007, through March 31,
2010, CAMS contained 51,399 of 69,730 contracting actions (approximately
74 percent). There were 16,379 actions (approximately 23 percent) in the
Transportation Contract Support System4 (TCSS) and 1,952 actions (approximately


1
  The original request resulted in U.S. Postal Service Office of Inspector General (OIG) issuing a report titled U.S.
Postal Service Purchasing Policies (Report Number
CA-AR-10-005, dated September 20, 2010).
2
  The single authoritative repository for federal procurement award data, FPDS is an automated system that collects
and reports on federal procurement spending for federal agencies.
3
  Developed by the Postal Service, EDW provides users access to an automated single repository for collecting,
managing, and reporting Postal Service's data assets.
4
  An Oracle Web-based application that manages transportation contracts and related activities. TCSS allows
contracting officers to solicit, award, and administer transportation contracts.
Contract Management Data                                                                              CA-AR-11-002



3 percent) in the Facilities Management System5 (eFMS). All three systems interface
and provide data into EDW. However, we selected CAMS as our focus for this audit,
because it contains the universe of the most contracting dollars.

Conclusion

Postal Service officials did not adequately collect and maintain contract data in CAMS
and should improve procedures for validating contract data and create policies and
processes to ensure data integrity. Specifically, Postal Service employees did not
always accurately or completely record contract data when establishing 137 of the
139 contracting actions in CAMS that we reviewed. These actions were valued at
approximately $2.1 billion. System design limitations contributed to 73 percent of the
errors, and employee input errors accounted for 27 percent of the errors identified. As a
result, the Postal Service cannot accurately report on its contracts. This impacts the
transparency of the reported data and could result in erroneous decisions based on
incomplete and incorrect contract data. Furthermore, the OIG attempted to develop a
risk model to conduct continuous reviews of Postal Service contracts while also
identifying areas of emerging risk. However, we found the data was too unreliable to
use.

Contract Data Integrity

We reviewed the recording of nine pertinent data elements6 in CAMS. The CAMS
manual states three of the nine elements: procurement type, modification type, and
payment terms are required data elements. We viewed these nine data elements as
critical, because they describe the types of contracts awarded, how contracts are
awarded, when procurements are made, and the types of products and services
purchased. In addition, the Supplying Principles and Practices (SP&Ps) identified three
of the elements7 we tested as important and Supply Management Infrastructure
included them in previous reviews.

For fiscal year (FYs) 2008 and 2009, Postal Service employees did not always
accurately record or complete contract data when establishing contracting actions in
CAMS. Of the 139 contracting actions statistically selected, 137 (99 percent), valued at
approximately $2.1 billion, contained an error or multiple errors8 for the following six
elements:

    Award Type.
    Procurement Type.
    Modification Type.

5
  The official report of all Postal Service-Controlled Real Property, eFMS compiles the descriptive, management, and
financial data of each property for which the Postal Service has some form of management control, whether by
ownership, lease, permit, or other means.
6
  The data elements we selected were award type, procurement type, modification type, contract effective date,
award date signed, primary product code, performance start date, performance end date, and payment terms.
7
  These elements were award type, procurement type, and primary product code.
8
  An error represents an occurrence where CAMS data did not agree with the data in the contract file.


                                                         2
Contract Management Data                                                                                     CA-AR-11-002



       Contract Effective Date.
       Award Date Signed.9
       Primary Product Code.

Employees generally entered the correct data for the following three elements:
performance start date, performance end date, and payment terms. Additionally,
two contracting actions contained no errors. However, 60 percent of the contracting
actions had three errors or more (see Table 1).


                           Table 1: Contracting Actions with Errors
                                           Number of
                                                               Cumulative
                    Number of Errors       Contracting
                                                               Percentage
                                             Actions
                          0                      2                100%
                          1                     25                 99%
                          2                     29                 81%
                          3                     54                 60%
                          4                     21                 21%
                          5                      7                  6%
                          6                      1                  1%
                        Total                  139

Table 2 shows 73 percent of the errors occurred primarily because of system design
limitations in CAMS. CAMS is a commercial off-the-shelf package that is not specifically
tailored to the Postal Service’s contracting practices.

                           Table 2: Number of Error Occurrences
                                       Number of Error
                                                              Percentage
                                         Occurrences
               System Design                  267                73%
               Employee Input Errors           99                27%
                       Total                  366               100%

Also, the employee input errors, which accounted for 27 percent of all errors, occurred
because—

       Guidance in the CAMS manual10 on populating CAMS data elements is not clear,
       leading to inconsistent input approaches.

       Not all contracting personnel received CAMS training, because it is not mandatory.


9
    The award date signed field is the signature block for the contracting officer to bind the terms of the contract.
10
     Contract Authoring Management System Award User Workbook, v. 4.10.


                                                               3
Contract Management Data                                                                             CA-AR-11-002



Data Validation

The Institute for Supply Management (ISM) recommends as a best practice establishing
policies and procedures and defining roles and responsibilities to ensure data integrity.
Other best practices in master data management11 suggest cleansing, classifying, and
validating data before storage. For federal agencies, the Federal Acquisition Regulation
(FAR) mandates annual certification of contract action reports (CAR) data for
completeness and accuracy for the data entered into FPDS. One best practice
observed at a Category Management Center (CMC) is a quarterly electronic contract file
internal review performed for each CAMS user within that CMC. The CMC employee
reviews the electronic contract file to ensure data completeness and the existence of
appropriate electronic support documentation. CMC employees then complete a CAMS
contracts electronic data integrity evaluation sheet summarizing the findings and share
it with appropriate personnel. In May 2009, Supply Management implemented a high-
level routing feature in CAMS to certify the approval of contract documents; however, no
policy exists that establishes data integrity roles and responsibilities of the employees.

Because employees did not accurately record or complete contract data in CAMS, the
Postal Service cannot accurately report the types of contracts it awards, how it awards
them, when it makes procurements, and the types of products and services purchased.
In the audit titled U.S. Postal Service Purchasing Policies (Report Number CA-AR-10-
005, dated September 20, 2010), the Postal Service could not provide an accurate list
of all noncompetitive contracts from CAMS. Because of the significant number of errors
identified in CAMS data, management is potentially basing important decisions on
flawed data. Unreliable and inaccurate data poses a significant challenge to the Postal
Service. It could impact the agency’s ability to effectively support management’s
decisions and to assist officials across multiple Supply Management Portfolios and
CMCs. We consider $4.5 billion as other impact for data reliability12 due to inaccurate
data recorded in CAMS to support management decisions. These amounts are not
necessarily actual losses incurred by the Postal Service. See Appendix C for our
calculation of the other impact. See Appendix B for our detailed analysis of this topic.

Postal Service officials acknowledge the insufficient design of CAMS with respect to
capturing data. On February 8, 2011, Supply Management announced plans to redesign
and rename the following elements in CAMS to capture pertinent contract data:

     Award type will become contract/order type (pricing) and will be used to better
     capture pertinent contract type information.

     Procurement type will become competitive classification and will be used to capture
     the competitive status of the contract.


11
   Master data management is defined as the management of critical attributes of important data entities in your
enterprise, such as vendor and client, that are leveraged by cross-enterprise applications.
12
   Data used to support management decisions but that is not fully supported or completely accurate. This can be the
result of flawed methodology; procedural errors; or missing or unsupported facts, assumptions or conclusions.


                                                         4
Contract Management Data                                                         CA-AR-11-002



       Modification type will become action reason and will be used to better label the
       reason for modifications.

In addition, Supply Management officials began conducting contract file and CAMS
training in March 2011. In the training, they emphasized the use of contract effective
date and primary product code. Because system design errors significantly impact the
Postal Service’s ability to accurately use the award date signed field, the Postal Service
has elected to rely on the contract effective date field to collect data relevant to award
date signed.

We recommend the vice president, Supply Management:

1. Modify the Contract Authoring Management System to adequately capture contract
   data.

2. Develop guidance to define data elements that should be recorded in the Contract
   Authoring Management System.

3. Develop mandatory training for all employees with access to the Contract Authoring
   Management System.

4. Develop a process along with policies and procedures to ensure validity and
   completeness of contract data and establish definitions of employees’ roles and
   responsibilities for data quality.

Management’s Comments

Management agreed with all recommendations. Management stated they completed the
system coding enhancements, which will increase the reporting accuracy of CAMS
contract classification data on March 22, 2011. In addition, management stated they
conducted CAMS rapid refresher training in March and April 2011. The training focused
on key processes and data elements in CAMS to include process changes regarding
validity and completeness of contract data. The training also emphasized employee
roles and responsibilities for data quality. Further, management stated they plan to
update the CAMS data element guide based on the recently completed training
sessions, and processes and responsibilities for data review will be incorporated into
the guide.

Management stated they agree that some changes are needed to improve CAMS data
integrity and reporting; however, management disagreed with our conclusions and other
impact. Management stated the OIG focused its conclusions on a significant number of
data elements that are of secondary importance versus elements they primarily use in
contract administration and management. Management stated that four of the OIG
reviewed data elements13 provide classification information and insight into contracting
trends but are limited in value for contract management purposes.
13
     Award type, procurement type, modification type, and primary product code


                                                           5
Contract Management Data                                                                          CA-AR-11-002




In addition, management stated they agree data integrity is important for decision
making efforts but disagree with OIG in categorizing system design limitations as data
errors. Management also did not agree with the impact calculation but could offer no
alternative because of the lack of information provided about the OIG’s findings. See
Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. We commend
management for initiating corrective actions during the course of our audit.

Management stated they cannot agree to the impact identified in our report because of
insufficient information provided by the OIG. However, in addition to this report, we
provided management, at their request, with detailed data behind every contract
reviewed and data element tested.

We have further concerns regarding some of management’s more specific statements.
Management pointed out the OIG focused its conclusions on a significant number of
data elements that are of secondary importance versus elements that management
primarily use in contract administration and management. The data elements we
selected for review represent pertinent data for basic contract reporting. In addition,
three data elements we reviewed were included in prior internal reviews performed by
Supply Management and were described as important in the SP&Ps. In total, we
reviewed nine CAMS data elements.

The four data elements that management considered limited in value for contract
management purposes describe the types of contracts awarded (award type), how
contracts are awarded (procurement type), the purpose of the contracting actions
(modification type), and the types of products and services purchased (primary product
code). These four data elements cover basic, critical information that needs to be
recorded correctly in any contract awarded by a federal entity. For example, the errors
with procurement type data element resulted in the Postal Service being unable to
correctly identify its noncompetitive contracting universe.14 The Postal Service is
currently revising how all four elements are captured to allow it to capture the correct
data.

Management also pointed out they do not agree that system design limitations should
be considered data errors. Our review focused on comparing CAMS data to the data in
the contract file. If the data did not agree, regardless of the reason why, it is a data
integrity issue. The data in the system should match the data contained in the contract
file to ensure management decisions are based on accurate information. Also,
management’s analysis of our impact calculation is incorrect. Based on discussion with
management, we agreed to exclude 25 contracting actions containing only system
14
     U.S. Postal Service Purchasing Policies (Report Number CA-AR-10-005, dated September 20, 2010).


                                                         6
Contract Management Data                                                    CA-AR-11-002



design errors from our impact calculation. We did this because Supply Management
stated that it was not possible to make system changes to accurately capture the data
associated with the related data element errors. In addition, Supply Management is
taking steps to ensure the data from those data elements is captured elsewhere in the
system and that employees are trained in using those alternate data elements.
However, we did not agree to reduce our impact calculation for the remaining system
design errors, because Supply Management is able to make system enhancements to
improve the accuracy of the data captured for the impacted data elements.

The OIG considers all the recommendations significant and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation(s) can be closed. Management stated that they consider
action toward recommendation 1 completed as of April 7, 2011. Management did not
make a decision in capturing the primary product code. Therefore, the recommendation
will remain open. We look forward to management’s full action plan for addressing these
recommendations.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management or me at 703-248-2100.




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Joseph Corbett
    Deborah Giannoni-Jackson
    Susan M. LaChance
    Douglas P. Glair
    Trent K. Ensley
    Susan Witt
    Corporate Audit and Response Management




                                           7
Contract Management Data                                                                                         CA-AR-11-002



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is exempt from the FFATA of 2006; therefore, it is not required to
use the FPDS to post contract action data. However, the Postal Service uses EDW as
its entity-wide repository to provide internal transparency in managing contracts and
spend data. According to the SP&Ps, certain contract actions are required to be
publicized in the government-wide point of entry15 for external transparency. In addition,
newspapers, trade journals, and magazines may publish contract awards.

Postal Service contracting officials primarily use three systems for contract data
collection and contract management. These systems capture general contract
management data and data specific to contracts in the transportation and facilities. The
Postal Service developed each system to support the uniqueness of certain commodity
purchases. These systems feed required data elements directly to the Accounts
Payable Excellence (APEX)16 system for payment certification. During FY 2008 through
March 31, 2010, the primary contract data system, CAMS, contained 51,399 contracting
actions (approximately 74 percent). The transportation contract data system, TCSS,
contained 16,379 actions (approximately 23 percent), and the facilities contract data
system, eFMS, contained 1,952 actions (approximately 3 percent).

                                            Accounts Payable Excellence
                                                     (APEX)


                          Transportation           Contract Authoring       Facilities Management
                         Contract Support            Management                System (FMS)
                         System (TCSS)              System (CAMS)


                         Highway Mail                                                  Design & Construction
                         Transportation                                                and Repair & Alteration
                           Contracts                                                         Contracts




                                                       Supplies

                        Transportation      Services              Mail Equipment                Facilities




15
   Government-wide point-of-entry, specified by SP&Ps as FedBizOpps, has been designed as a single
point-of-entry for federal buyers to publish and for vendors to find posted federal business opportunities across
departments and agencies.
16
   An automated accounting system for processing and reporting of payments at the Postal Service.


                                                           8
Contract Management Data                                                                         CA-AR-11-002



OBJECTIVES, SCOPE, AND METHODOLOGY

Our overall objectives for this audit were to assess the Postal Service’s capability to
collect, maintain, and validate contract management data to support the contract
administration process and to evaluate the policies and processes in place to ensure
data integrity. To accomplish our objectives, we reviewed the SP&Ps, CAMS manual,
and data integrity policies. We also conducted interviews with the managers in Supply
Management, contracting officers, purchasing specialists, and the CAMS program
manager. Although the Postal Service is not required to use the FPDS, we
benchmarked the Postal Service data systems against FPDS and against companies
that specialize in master data management and data quality along with related
associations. The purpose was to identify best practices associated with the
transparency and reporting of contract data on an entity-wide basis.

We also validated data obtained from CAMS to supporting documentation. We selected
CAMS as our focus for this audit, because it contains the universe of the most
contracting dollars. For FYs 2008 and 2009, CAMS contained 23,205 active contracting
actions valued at $5.9 billion.17 Based on the universe, we statistically selected a
sample of 139 contracting actions valued at approximately $2.1 billion.

For the sampled actions, we selected the following CAMS data elements to evaluate:

     Award Type.
     Procurement Type.
     Modification Type.
     Contract Effective Date
     Award Date Signed.
     Primary Product Code.
     Performance Start Date.
     Performance End Date.
     Payment Terms.

These elements describe the types of contracts awarded (award type), how contracts
are awarded (procurement type), identifies the purpose of the contracting actions
(modification type); when procurements are made (contract effective date and award
date signed), the types of products and services purchased (primary product code), and
terms of the contract (payment terms, performance start and end dates). These
elements represent pertinent data for basic contract reporting and were included in prior
internal reviews performed by Supply Management Infrastructure Compliance teams.
Further, the SP&Ps describe contract (award) type, modification type, and contract
effective date as important data elements. Because of system design errors, the Postal
Service cannot accurately populate the award date signed field. The Postal Service has
chosen to rely on the contract effective date as an alternative to capturing award date
signed. Use of the contract effective date field is emphasized in the current training.

17
  We excluded closed and canceled contracting actions and those examined in the U.S. Postal Service Purchasing
Policies (Report Number CA-AR-10-005, dated September 20, 2010).


                                                       9
Contract Management Data                                                     CA-AR-11-002



We conducted this performance audit from May 2010 through March 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on March 2, 2011, and included their comments
where appropriate.

We assessed the reliability of contract data by comparing the CAMS data to source
documentation. We determined that the CAMS data was not sufficiently reliable. Our
audit results report on the inadequacy of the data in CAMS.

PRIOR AUDIT COVERAGE

Our report titled U.S. Postal Service Purchasing Policies (Report Number
CA-AR-10-005, dated September 20, 2010) concluded that Postal Service officials
could not readily identify its noncompetitive contract universe and was not consistently
complying with existing controls for justifying and approving noncompetitive contracts.
As a result, we classified the noncompliant, insufficiently supported contracts totaling
$218,940,344 as unsupported questioned costs, because their noncompetitive
justifications do not contain all the required elements and/or approvals/endorsements.
Management agreed with our recommendation to take steps to ensure full and accurate
tracking and public reporting of noncompetitive contracting actions.




                                           10
Contract Management Data                                                                             CA-AR-11-002



                                APPENDIX B: DETAILED ANALYSIS

Contract Data Integrity

For FYs 2008 and 2009, Postal Service employees did not always accurately record or
complete contract data when establishing contracting actions in CAMS. Of the
139 statistically selected contracting actions, 137 (99 percent), valued at approximately
$2.1 billion, contained an error or multiple errors for the following six elements:

     Award Type.
     Procurement Type.
     Modification Type.
     Contract Effective Date.
     Award Date Signed.
     Primary Product Code.

Employees generally entered the correct data for the following three elements:
performance start date, performance end date, and payment terms.

Award Type

Ninety-eight of the 139 contracting actions contained an error in describing award type.

                                           Table 3: Award Type
                                                                                      Number of
                            Condition                               Cause
                                                                                     Occurrences
          CAMS does not allow the employee to
                                                                   System
          select an award type for                                                           57
                                                                   Design
          “Delivery/Task Orders”
          CAMS does not allow the employee to
                                                                   System
          select more than one award type for                                                28
                                                                   Design
          hybrid contracting actions
          Employees selected the incorrect                       Employee
                                                                                              7
          award type in CAMS                                     Input Error
          CAMS does not allow the employee to                      System
                                                                                              6
          select the appropriate award type                        Design
                           Total                                                             98

CAMS populated the award type field as delivery/task order for 57 contracting actions.
Although classifying the contracting action as a delivery/task order is informative, it does
not specifically capture whether the action was, for example, fixed price or time and
material. This occurred because CAMS automatically populates the award type field
with a delivery/task order when it is selected as the document type.18 Furthermore,
18
  Document type is an option in CAMS that provides the template for the user on how to create a contract,
delivery/task order, or solicitation.


                                                        11
Contract Management Data                                                                          CA-AR-11-002



when delivery/task order is selected, the employee is not given the option of populating
the award type, unless the employee is adding a new line to the award.

The Postal Service has contracts with multiple award types; therefore, employees were
unable to select multiple award types for 28 contracting actions. For example, a contract
may have been an indefinite quantity and fixed-price contract, but because of the
system design in CAMS, the employees are limited to select only one award type.

Employees selected the incorrect award type for seven contracting actions. For
example, a contract may have been a cost reimbursement contract, but CAMS identified
it as a fixed-price contract. Also, we identified six contracting actions in CAMS that did
not allow employees to select the appropriate award type because of the limited award
type selections. For example, we identified a contract that was fixed-price with
economic price adjustment; however, CAMS did not offer this award type as a selection,
although it is a choice in the CAMS manual.

Procurement Type

Eighty-two of the 139 contracting actions contained an error in describing procurement
type.

                                       Table 4: Procurement Type
                                                                                      Number of
                             Condition                             Cause
                                                                                     Occurrences
           CAMS does not clearly define the
                                                                   System
           purchase method as competitive or                                                68
                                                                   Design
           noncompetitive
           Employees selected the incorrect                      Employee
                                                                                             8
           procurement type in CAMS                              Input Error
           Employees did not select a                            Employee
                                                                                             6
           procurement type in CAMS                              Input Error
                          Total                                                             82

In addition to competitive and noncompetitive, CAMS offers employees several different
methods to make their purchases. We found 68 occurrences where employees selected
other option as the procurement type. For instance, employees selected procurement
types such as Orders Under Postal Service Ordering Agreements and Strategic
National Automated Purchasing System (SNAPS) Renumbered to CAMS Number.
Although these options provide information about the contracting action, they do not
specifically capture whether the action was competitive or noncompetitive. We
previously reported19 that Postal Service’s contracting systems do not classify all
contracts as competitive or noncompetitive.




19
     U.S. Postal Service Purchasing Policies (Report Number CA-AR-10-005, dated September 20, 2010).


                                                        12
Contract Management Data                                                       CA-AR-11-002



Further,, employees selected the incorrect procurement type for eight contracting
actions. We identified noncompetitive contracting actions recorded as competitive
actions in CAMS. Moreover, we found six contracting actions where employees did not
select a procurement type in CAMS, although the procurement type is a required field
according to the CAMS manual.

Modification Type

Forty-eight of the 139 contracting actions contained an error in modification type.

                              Table 5: Modification Type
                                                                     Number of
                       Condition                     Cause
                                                                    Occurrences
       Employees selected the incorrect            Employee
                                                                         28
       modification type in CAMS                   Input Error
       Employees did not select a                  Employee
                                                                         20
       modification type in CAMS                   Input Error
                        Total                                            48

We identified 28 instances where employees selected the incorrect modification type.
For example, we found employees selected supplemental/bilateral when the
modification was for a renewal. In addition, incidents occurred in which employees
selected a modification type for base awards, which are considered original contracts,
not modifications. Furthermore, we identified 20 contracting actions in which employees
did not select a modification type, although the modification type is a required field
according to the CAMS manual.

Contract Effective Date

Eleven of the 139 contracting actions contained an error in contract effective date.

                           Table 6: Contract Effective Date
                                                                     Number of
                       Condition                      Cause
                                                                    Occurrences
       Employees entered the incorrect              Employee
                                                                          10
       contract effective date in CAMS              Input Error
       Employee did not enter the contract          Employee
                                                                          1
       effective date into CAMS                     Input Error
                         Total                                            11

Employees entered the incorrect date for the contract effective date field in CAMS for
10 contracting actions. For example, we identified a contract that had a contract
effective date of June 5, 2008, but CAMS reflected February 12, 2008, as the effective
date. In addition, we identified one instance in which the employee did not enter the
contract effective date in CAMS. Therefore, the system defaulted to January 1, 1900.



                                             13
Contract Management Data                                                       CA-AR-11-002



Award Date Signed

One hundred eleven of the 139 contracting actions contained an error in award date
signed.

                              Table 7: Award Date Signed
                                                                     Number of
                       Condition                      Cause
                                                                    Occurrences
       CAMS does not allow the user to input
                                                     System
       the date after the contracting action is                          108
                                                     Design
       released in CAMS.
       Employees entered the incorrect date         Employee
                                                                          2
       in CAMS                                      Input Error
       Contracting officer did not sign the         Employee
                                                                          1
       contracting action.                          Input Error
                         Total                                           111

Award date signed is the signature block for the contracting officer to bind the terms of
the contract. We identified 108 contracting actions that had January 1, 1900, as the
award date signed in CAMS. Because of the CAMS system design, employees cannot
populate the field after releasing the contracting action, and as a result, CAMS
defaulted the award date signed to January 1, 1900.

Also, employees entered the incorrect date for the “award date signed” field in CAMS
for two contracting actions. For instance, we identified a contract that was signed by the
contracting officer on September 30, 2008, but CAMS reflected September 12, 2008, as
the date signed. Furthermore, we also identified one instance in which the contracting
officer’s signature was missing from the contracting action.




                                            14
Contract Management Data                                                                            CA-AR-11-002



Primary Product Code

Sixteen of the 139 contracting actions contained errors with primary product codes.20

                                    Table 8: Primary Product Code
                                                                                       Number of
                           Condition                               Cause
                                                                                      Occurrences
         Employees selected an incorrect                         Employee
                                                                                             15
         product code in CAMS                                    Input Error
         Employee did not select a product                       Employee
                                                                                              1
         code in CAMS                                            Input Error
                         Total                                                               16

Employees selected the incorrect primary product code for 15 contracting actions. For
example, we found that an employee selected the primary product code associated with
computer hardware, but the contract file revealed the contracting action was for
software maintenance. We also found one instance in which the employee did not
select a primary product code.

Training

Training was identified as a key factor in the occurrences of data integrity errors.
Currently, CAMS training is not mandatory for users, and although the CAMS program
manager sporadically provides training on a voluntary basis, the last training was
conducted in December 2008. We observed that on-line resources are available for
employees at their discretion. Supply Management officials began conducting contract
file and CAMS training in March 2011.

Data Validation

The ISM recommends as a best practice establishing policies and procedures and
defining the roles and responsibilities of employees to ensure data integrity. Other best
practices suggest cleansing, classifying, and validating data before storage. For federal
agencies, FAR mandates annual certification of CAR data for completeness and
accuracy for the data entered into FPDS. Within Supply Management, we observed a
best practice at a CMC performed by the site administrator21 who:

     Performs a quarterly electronic contract file internal audit for each user at the CMC.
     The contract electronic file is reviewed to ensure data completeness and that
     appropriate electronic supportive documentation is in the file. A CAMS “Contracts
     Electronic Data Integrity Evaluation Sheet” is completed to summarize findings and
     shared with appropriate personnel.

20
   The Institute of Supply Management defines product code as a code attached to a product that will be used to
identify and track that product.
21
   A resource for CAMS users within a CMC to provide troubleshooting guidance and advice for CAMS data entry
issues.


                                                        15
Contract Management Data                                                     CA-AR-11-002




   Acts as a resource for CAMS users within the CMCs, seeking advice and guidance
   for CAMS data entry issues to improve data quality.

In May 2009, Supply Management implemented a high-level routing feature in CAMS to
certify the approval of contract documents; however, no policy exists to establish the
data integrity roles and responsibilities of employees. The SP&Ps do not contain
policies on contract reporting or the validation of contract management data. The
SP&Ps do provide a specific, detailed process for validating, classifying, and cleansing
spend data after it is recorded into the systems. Establishing data integrity roles and
responsibilities to ensure data is accurately entered in contract data systems provides
for more reliable reporting, less errors, and better data consistency.




                                           16
    Contract Management Data                                                         CA-AR-11-002



                                  APPENDIX C: OTHER IMPACT

                                          Data Reliability

    We performed a stratified variable appraisal that allowed us to extrapolate results from a
    universe of 23,205 contracting actions valued at $5,986,272,168 for FYs 2008 and
    2009. We excluded the value of closed and canceled contracting actions and those
    contracting action values examined in the U.S. Postal Service Purchasing Policies
    (Report Number CA-AR-10-005, dated September 20, 2010) to arrive at this universe.
    We divided the universe into five strata to achieve a desired precision rate. Our sample
    size resulted in 139 contracting actions valued at approximately $2.1 billion as shown in
    Table 9.

 Table 9: Number of Contracting Actions and Value of the Universe and Sampled Universe
                                                      Value of       Sampled      Value of Sampled
                                    Universe
                                                      Universe       Universe         Universe
Stratum 1:
                                       530         -$128,596,607         11              -$1,030,939
Values less than $0
Stratum 2:
                                      10,757           18,214,786        1                          0
Values less than $10,000
Stratum 3:
                                      10,494          836,793,105        14                   918,360
Values less than $50,000
Stratum 4:
                                      1,341        2,763,797,158         46              105,576,876
Values less than $10 million
Stratum 5:
                                        83         2,496,063,726         67            1,967,969,050
Values greater than $10 million
              Total                   23,205      $5,986,272,168        139           $2,073,433,347

    We found that employees did not always accurately record or complete contract data for
    137 of the 139 contracting actions we reviewed in CAMS. The 137 contracting actions
    had an absolute value of $2,075,441,725. We reduced the absolute value to exclude
    25 contracting actions containing system design errors that could not be corrected to
    accurately capture the recording of award date signed and hybrid contract awards. The
    Postal Service is taking steps to ensure that data from these fields is captured
    elsewhere in the system and that employees are trained in using those alternate fields.
    Therefore, our statistical projection is based on 112 contracting actions, valued
    $1,748,676,990. Also, because of questionable funding approvals, we excluded
    $552,430,377 from our projection to avoid duplication of reportable impact. In a
    separate report we plan to address funding approvals.

    Table 10 illustrates the basis for our statistical projection. Specifically, we projected the
    absolute value of $1,196,246,614 to determine the impact of data integrity from the total
    universe. At a 95-percent confidence level, we projected that $4,534,627,158 value of
    contracting actions contained inaccurate data recorded in CAMS. These amounts are
    not necessarily actual losses incurred by the Postal Service.


                                                 17
Contract Management Data                                                CA-AR-11-002




                  Table 10: Basis for Statistical Projection
Absolute Value of 112                          Data Integrity    Data Integrity
                          Questionable
 Contracting Actions                            Projection        Projected
                       Funding Approvals
     with Errors                                   Basis           Amount
   $1,748,676,990         $552,430,377        $1,196,246,613    $4,534,627,158




                                        18
Contract Management Data                                  CA-AR-11-002



                      APPENDIX D: MANAGEMENT’S COMMENTS




                                     19
Contract Management Data        CA-AR-11-002




                           20
Contract Management Data        CA-AR-11-002




                           21
Contract Management Data        CA-AR-11-002




                           22
